HHS/OIG-Audit--"Direct Maintenance Payments Under the Title IV-E Foster Care Program for Children Exceeding the Age Limit, (A-07-96-01020)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Direct Maintenance Payments Under the Title IV-E Foster Care Program
for Children Exceeding the Age Limit," (A-07-96-01020)
April 5, 1996
Complete Text of Report is available in PDF format
(1.2 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report determined that the State claimed direct maintenance costs
for children who were identified as eligible for foster care, but exceeded the
age limit for eligibility (age 18). As a result we determined that as much as
$68,293 in direct maintenance costs could be unallowable. We are recommending
that the State (1) refund maintenance costs for the ineligible 19 year old children
and the 18 year old children who had graduated from school and (2) determine
if the remaining 18 year olds were full-time students, refunding costs for any
who were ineligible. We are also recommending that the State establish computer
edits that would prevent payments for children exceeding the age limits.